<html>
<title> - NOMINATION OF DANIEL I. WERFEL</title>
<body><pre>[Senate Hearing 111-575]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 111-575
 
                     NOMINATION OF DANIEL I. WERFEL 

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                                 of the

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

  NOMINATION OF DANIEL I. WERFEL TO BE CONTROLLER, OFFICE OF FEDERAL 
         FINANCIAL MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

                           SEPTEMBER 16, 2009

                               __________

       Available via http://www.gpoaccess.gov/congress/index.html

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

53-838 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           JOHN McCAIN, Arizona
MARK L. PRYOR, Arkansas              GEORGE V. VOINOVICH, Ohio
MARY L. LANDRIEU, Louisiana          JOHN ENSIGN, Nevada
CLAIRE McCASKILL, Missouri           LINDSEY GRAHAM, South Carolina
JON TESTER, Montana                  ROBERT F. BENNETT, Utah
ROLAND W. BURRIS, Illinois
MICHAEL F. BENNET, Colorado

                  Michael L. Alexander, Staff Director
               Kristine V. Lam, Professional Staff Member
                         Troy H. Cribb, Counsel
 John P. Kilvington, Staff Director, Subcommittee on Federal Financial 
Management, Government Information, Federal Services, and International 
                                Security
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                   Jennifer L. Tarr, Minority Counsel
                    Lisa M. Nieman, Minority Counsel
                  Trina Driessnack Tyrer, Chief Clerk
         Patricia R. Hogan, Publications Clerk and GPO Detailee
                    Laura W. Kilbride, Hearing Clerk

















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Carper...............................................     1
Prepared statement:
    Senator Carper...............................................    21

                                WITNESS
                     Wednesday, September 16, 2009

Daniel I. Werfel to be Controller, Office of Federal Financial 
  Management, Office of Management and Budget:
    Testimony....................................................     4
    Prepared statement...........................................    26
    Biographical and financial information.......................    29
    Responses to pre-hearing questions...........................    39
    Letter from the Office of Government Ethics..................    70
    Responses to post-hearing questions for the Record...........    71


                     NOMINATION OF DANIEL I. WERFEL

                              ----------                              


                     WEDNESDAY, SEPTEMBER 16, 2009

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thomas R. 
Carper, presiding.
    Present: Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Good morning. The Committee will come to 
order.
    Today, we will be considering the nomination of Daniel 
Werfel to be Controller of the Office of Federal Financial 
Management at the Office of Management and Budget (OMB).
    Mr. Werfel is no stranger to this Committee or to the 
Subcommittee that I am privileged to Chair, the Subcommittee on 
Federal Financial Management. During his time as Deputy 
Controller and Acting Controller, my staff and I have worked 
closely with him and his team on a number of the most pressing 
financial management challenges facing our Federal Government.
    I am pleased that the President has sent us such a 
qualified candidate for this position. As I am sure Mr. Werfel 
will point out in his opening statement, he has extensive 
experience within the Office of Federal Financial Management. 
He has also taken the lead on a number of key issues, including 
some of the tough work related to the implementation of the 
American Recovery and Reinvestment Act, so he knows very well 
the challenges that lie ahead should he be confirmed. And I 
will touch on just a few of those challenges.
    First, there is the issue of improper payments.
    An improper payment occurs when Federal funds go to the 
wrong recipient, when a recipient receives the incorrect amount 
of funds, when funds are used in an inappropriate manner, or 
when documentation is not available to explain why a payment 
was made in the first place.
    In fiscal year 2008--the most recent year for which data 
are available--agencies made an estimated $72 billion--that is 
billion with a ``b''--in improper payments, most of them 
overpayments. The actual amount of improper payments made by 
Federal agencies is actually probably much higher. The $72 
billion total reported does not even include estimates from the 
Medicare Prescription Drug Program or several other high-risk 
programs at the Department of Homeland Security and elsewhere.
    This is unacceptable. The kind of waste and mismanagement 
represented by these improper payments estimates we see each 
year undermines taxpayers' faith in government. Unfortunately, 
despite the progress that has been made over the years--and 
progress has been made--in highlighting improper payments and 
reducing error rates in some instances, too many agencies 
continue to make avoidable mistakes and, as a result, waste 
billions of dollars that could have been put to better use.
    I am told that the Social Security Administration--an 
agency that actually makes relatively few improper payments--
sent thousands of $250 checks to ineligible recipients after 
the enactment of the Recovery Act. I am certain that very 
little of that money will help us create jobs or get our 
economy going again.
    We need to get our arms around this problem. We need to 
help agencies improve transparency in this area, to prevent 
mistakes before they happen, and also to more aggressively 
recover improper payments that are made. The Improper Payments 
Elimination and Recovery Act, S. 1508--legislation that I 
introduced this summer with a number of my colleagues and that 
was reported out of Committee in July--would help in all three 
of these areas. And I know that you are familiar with this 
legislation, Mr. Werfel, and I am pleased to hear from my staff 
that you plan to make improper payments a priority of yours, if 
you are confirmed. That is great news.
    The second area I want to touch on is property management. 
Not too long ago, it would have been hard for us to even know 
how many buildings or other structures Federal agencies owned. 
Tremendous progress has been made in recent years, however, in 
identifying Federal assets and learning more about their 
condition. What we have learned is that there are a great 
number of assets--some 20,000, I am told--that are actually 
classified as ``excess.'' This means that we no longer need 
them but are still paying year in and year out to maintain and 
secure them. In addition, tens of thousands more assets are 
underutilized, meaning we are not getting all that we could out 
of them.
    Now, this seems like a relatively easy problem to address,. 
but unfortunately, the property disposal process laid out in 
current law is costly, and it takes a significant amount of 
time. In addition, agencies looking to sell a piece of property 
are not even permitted to retain sale proceeds, even when 
preparing an asset for sale might be fairly costly.
    There is probably much that agencies can do now under the 
current rules to improve property management and offload assets 
they no longer need. But I look forward to working with you if 
you are confirmed to make the common-sense changes necessary to 
build on the progress that has been made to date in this area.
    Finally, I would like to touch on Federal financial 
reporting.
    Each year, the major Federal agencies issue audited 
financial statements. These documents do not usually receive 
much attention from the press or the public at large, but those 
of us with responsibility for paying attention to them have 
noticed that they have improved in quality and timeliness over 
time, particularly in recent years. You and your team at OMB 
deserve credit for that, Mr. Werfel. But one major challenge 
ahead of you, if confirmed, is getting an opinion on the 
Federal Government's consolidated financial statements.
    Over the years, the Government Accountability Office (GAO) 
has never been able to render an opinion on this statement. 
This essentially means that our books are still such a mess 
that the GAO audit team just cannot make sense of them. That is 
troubling from a transparency perspective, and other 
perspectives as well. And it also shows that we have plenty of 
work to do in our efforts to professionalize financial 
management in the Federal Government. Any private sector 
company with annual financial statement audit results like the 
Federal Government's would probably not be in business for very 
long.
    Let me just convey my thanks to you, Mr. Werfel, for the 
work that you have done in all of these areas over the years 
and for your willingness to continue that work. And when we 
finish swearing you in, you will have an opportunity to 
introduce your family. It was a special treat to have a chance 
to meet your parents and to see that they raised at least two 
sons--I don't know if there are more than you and your brother 
here. But we want to thank them for instilling in you the kinds 
of values that are demonstrated in the work that you do for the 
people of this country. Thank you both. And you sort of turned 
him over to Beth, his wife, and she has continued the training 
ever since, and we are just delighted that you are here today 
and that you are willing to share your husband with the people 
of our country.
    And to Sean and Molly, thank you for coming, and it is nice 
to see you both and to meet you, and we are very glad that you 
could join your Dad on this special day.
    To others, to Jeff Zients, who is our Chief Performance 
Officer and just a valuable new member of our team, an 
important member of this team, we are happy that you are here, 
along with other members of our extended OMB family.
    The fact that there are not a lot of other members here is 
actually a good sign because if they were here, that would 
probably mean that this is a nomination that is in trouble. And 
the fact that these seats are very empty is probably a positive 
sign.
    Mr. Werfel has filed responses to a biographical and 
financial questionnaire. He has also answered pre-hearing 
questions submitted by the Committee. In addition, his 
financial statements have been reviewed by the Office of 
Government Ethics. Without objection, this information will be 
made part of the record. The financial data, however, will 
remain on file and available for public inspection in the 
Committee's offices.
    Committee rules require that all witnesses at nomination 
hearings give their testimony under oath, and, Mr. Werfel, I am 
going to ask you to please stand and raise your right hand at 
this time.
    Do you swear that the testimony you will give before this 
Committee will be the truth, the whole truth, and nothing but 
the truth, so help you, God?
    Mr. Werfel. I do.
    Senator Carper. Please be seated.
    When we start with the questions in a few minutes, I am 
going to ask you initially three standard questions, and I 
think you are aware of that. But before we get into any 
questions, I would like you to go ahead and make your 
statement, and if you would like to introduce your family 
further, feel free to do so. We are delighted that you are here 
and grateful for your willingness to serve. Proceed.

 TESTIMONY OF DANIEL I. WERFEL,\1\ TO BE CONTROLLER, OFFICE OF 
 FEDERAL FINANCIAL MANAGEMENT, OFFICE OF MANAGEMENT AND BUDGET

    Mr. Werfel. Thank you. Chairman Carper, I am honored and 
humbled by the opportunity to come before you as President 
Obama's nominee for Controller of the Office of Federal 
Financial Management within OMB. I would like to thank OMB's 
Deputy Director for Management Jeff Zients for being here 
today. I also appreciate the support of OMB Director Peter 
Orszag and Deputy Director Robert Nabors. I have had the 
distinct privilege of working with these three great leaders 
over the past several months. Through their hard work, 
unyielding demand for results, and belief in the importance of 
strong analytics to support the right public policies, they 
have inspired me and others at OMB to reach deeper within 
ourselves to help deliver a higher performing government. I am 
grateful to each of them for supporting my nomination and thus 
demonstrating their faith in me as a leader and as a public 
servant.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Werfel appears in the Appendix on 
page 26.
---------------------------------------------------------------------------
    I am very grateful to have my family with me this morning, 
supporting me today as they have through every step of my life. 
I would like to introduce my wife of 12 years, Beth; my two 
children, Sean and Molly; my parents, Fred and Barbara; and my 
brother, Steven. I would also like to recognize members of my 
family not here today: My sister, Lori, and her family, as well 
as my brother Steven's wife and children, who I know are all in 
New York right now cheering me on; also, my mother-in-law, 
Elaine, and my father-in-law, Dave, doing the same in Ohio. 
Throughout the years, I have relied on my family for strength, 
and I thank them for their continued support during this 
process.
    For more than 12 years, I have had the honor of working as 
a public servant for the U.S. Government. Over this time, I 
developed both a penchant and a sustained passion for improving 
financial management practices across government. Fueling this 
passion is my firm belief that one of the government's most 
critical responsibilities is to serve as an effective steward 
of taxpayer dollars and that this responsibility can only be 
met if the Federal financial management community is doing its 
part: Tracking and accounting for taxpayer dollars; initiating 
internal controls that mitigate the risk of fraud and error; 
publicly reporting reliable information about the government's 
finances; and strategically integrating financial information 
into decisionmaking.
    For the past 5 years, I have played a leadership role 
within OMB and in the broader financial management community 
advancing these efforts and have gained important perspectives 
on the strengths, weaknesses, challenges, and opportunities 
associated with these efforts.
    This experience has led me to the conclusion that although 
important progress is being made, as you noted, a significant 
amount of work remains to be done. At too many Federal 
agencies, persistent weaknesses in basic financial management 
practices lead to unreliable reporting, payment errors, and 
other forms of government waste. Of note, the amount of 
remaining improper payments on the government's books is 
staggering and must be corrected.
    Moreover, the sweeping challenges we face in the government 
today require our financial managers to move beyond the basics 
of accounting and reporting. Fortunately, the tools to overcome 
these challenges are either at our disposal or are otherwise 
obtainable. We have detailed inventories of improper payments 
and unneeded real estate. We have a growing number of agencies 
and professional staff who have successfully overcome financial 
management challenges and who can provide others that road map. 
We have technologies and processes emerging out of the private 
sector that can enable lower risk and cost solutions. And from 
Congress and the public, we have a growing demand for financial 
information and a growing frustration with spending 
improprieties that are serving as a catalyst for action and 
improvement in financial management shops across government.
    If confirmed, I will work with Congress, OMB leaders, and 
the larger financial management community to leverage these 
tools to forge new and unprecedented results in financial 
management. Success will be measured along the following key 
areas and priorities: Eliminate inefficient government 
spending, such as improper payments and unneeded real estate; 
right-size the cost of financial management operations across 
government; drive improvements in grants management; 
effectively implement the transparency requirements of both the 
Federal Funding Accountability and Transparency Act and the 
American Recovery and Reinvestment Act; and remediate 
persistent weaknesses in basic financial management practices.
    I am both humbled and energized by the opportunity to play 
a leadership role in these efforts. For as long as I can 
remember, I have felt the call for public service. Since 
arriving in the Federal Government, I have been blessed with 
supervisors, colleagues, staff, and other peers and mentors who 
have helped me grow as a professional and as a leader. In 
particular, the team of civil servant professionals at the 
Office of Federal Financial Management at OMB has been a family 
to me for more than 5 years, and together we have formed a team 
that I believe to be as productive and hard-working as any in 
government. I am thrilled for the opportunity to lead the 
Office of Federal Financial Management as we take on these new 
and growing challenges. Working closely with Peter Orszag, 
Robert Nabors, Jeff Zients, and the leadership team they are 
assembling, I am confident that we can advance financial 
management to a new and sustainable level of excellence that 
helps enable the government to meet that most critical of 
responsibilities: Serving as an effective steward of taxpayer 
dollars.
    Mr. Chairman, I would be pleased to answer any questions 
you may have.
    Senator Carper. Great. Thank you very much for that 
statement.
    As I said earlier, I am going to start by asking you three 
standard questions that Committee rules require that I ask.
    First, is there anything you are aware of in your 
background that might present a conflict of interest with the 
duties of the office to which you have been nominated?
    Mr. Werfel. No, I do not.
    Senator Carper. All right. I am tempted to look at your 
brother over there to see if he has anything he could add to 
that response. [Laughter.]
    But I will not. I think that is outside of the rules.
    Do you know of anything, personal or otherwise, that would 
in any way prevent you from fully and honorably discharging the 
responsibilities of the office to which you have been 
nominated?
    Mr. Werfel. No, I do not.
    Senator Carper. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted Committee of Congress if you are confirmed?
    Mr. Werfel. Yes.
    Senator Carper. So far, so good. I want to come back to 
improper payments for a little bit, if I could. I have spoken, 
I believe, with you before and with Mr. Zients about some work 
that is going on within the Department of Health and Human 
Services to try to go out and recover monies that have been 
improperly spent, I think with respect to Medicare. And as you 
know, we are going through a lot of debate on health care 
reform, trying to figure out how to provide better health care 
for less money. And we have learned that we have misspent, 
inappropriately spent a lot of money--some of it for medical 
equipment, but a lot of people have set up bogus companies and 
have billed Medicare for services never provided.
    What we started doing is going out to recover some of that 
money. I think we started about 3 years ago, and we just were 
focusing on three States. And I think we used private sector 
firms to go out and try to do the recoveries. The first year, I 
am told, they did not recover much at all. The second year they 
recovered a little more. Then last year they recovered about 
$700 million in just three States. And I believe the intent is 
to go out and to try to replicate that in the remaining 47 
States.
    Are you aware of this initiative? And could you talk about 
it at all?
    Mr. Werfel. Yes, Senator. I am very aware of this program. 
The Medicare recovery audit program is about hiring contractors 
on a contingency basis to go out and find the errors that are 
occurring in the program, and these errors typically occur when 
we reimburse hospitals and doctors for procedures that did not 
occur or for the wrong procedure or too much money. A good 
example of that would be our reimbursing a hospital for 
magnetic resonance imaging (MRI) when only an X-ray occurred. 
The MRI is much more expensive, so we are reimbursing them for 
the wrong amount.
    The strength of this program is the incentive that is set 
up. I think you mentioned earlier that agencies made $72 
billion in improper payments across government, and one of the 
lessons learned, as we have studied those improper payments and 
tried to figure out what the root causes are and how we can do 
better, is that a promising strategy that can be employed is to 
make sure that all the stakeholders involved, from the Federal 
agency down to the recipients and the States and everyone 
involved, have an incentive to both root out and find these 
improper payments and then go recover them on behalf of the 
taxpayer. And in this case, that incentive is very strong 
because the private contractors being hired are paid based on 
their ability to find those errors and recover those funds.
    And so with that incentive structure in place, we have seen 
significant results, as you mentioned, close to $1 billion in 
just three States, and now we are in the process of expanding 
that to all 50 States with a target completion of January 2010 
to have it up and running throughout the United States.
    We are very excited about this program. In particular, how 
can we use this example and this model of finding the right 
incentives and getting the right players involved to remediate 
improper payments in other programs as well?
    Senator Carper. Would you just think out loud for us and 
think about how we might extend these lessons learned from this 
demonstration in these three States to Medicaid, where both the 
State and the Federal Government share in the cost of 
expenditures?
    Mr. Werfel. Yes. The two programs obviously are both 
Federal programs supporting health care, and they operate 
somewhat differently. As you mentioned, Medicaid dollars flow 
through the States, and the implementers of the Medicare 
program are hired contractors that are processing these 
Medicare claims.
    With Medicaid, I think the question then becomes, because 
of the role the States play in implementing the program, 
finding the right incentives for the States to understand where 
their risks of errors are and to be taking the steps that are 
necessary. Thinking out loud as you mentioned, to draw the 
analogy, if the private contractor is getting a financial 
benefit from going out and finding the error, some of it is 
coming back to the Medicare trust fund, but some of it is going 
to the contractor. We might want to think about similar 
incentives for States where they are rewarded financially for 
uncovering errors, so that all the money is not necessarily 
returned to the government, but a portion of the money is 
returned to the State to invest in other activities and 
priorities.
    So often--and I think we will see this when we talk about 
real property as well--the financial incentive of going out and 
finding the problem and correcting it is a powerful tool, and I 
would think that is one example where the States might end up 
with a more aggressive approach and more resources being spent 
on these efforts than we would otherwise have seen.
    Senator Carper. And I would just hope, as we extend the 
three-state demonstration for Medicare cost recovery to the 
other 47 States, that we will begin preparing to extend the 
same kind of cost-recovery approach to Medicaid.
    One of the approaches we use in health care reform to 
extend coverage to people who do not have it is to require 
States to provide coverage to a higher level of poverty. I 
think we are going to ask them to begin covering childless 
adults whose income is up to maybe 130 percent of poverty. And 
so that will be more money that the Federal taxpayers will be 
paying, also eventually probably some additional contribution 
from the States. The States are hard pressed, as you know. 
Medicaid is a big cost driver for them. And we need to find 
ways to relieve that burden from them and also relieve the 
burden on the Federal taxpayers. If we can come up with $700 
million in Medicare in 1 year from three States, there has to 
be money out there to recover from Medicaid.
    When I think of improper payments, I think of it in three 
steps. The first is to identify the improper payments and have 
reporting occur, identify and report. The second is to take 
steps to reduce the incidence of improper payments. And the 
third is to recover to the extent that we can. So it is 
actually four: Identify, report, reduce, and recover.
    We appreciate the work that has been done. It was not that 
many years ago we were, frankly, doing a lousy job identifying 
and reporting. I think we are doing a much better job of 
identifying improper payments, although not all agencies are. 
But we have plenty of work to do. We are delighted that this is 
a priority for you, and we hope that the legislation that we 
are working on will assist not just OMB, not just the Federal 
agencies, but really assist the taxpayers.
    Let us talk a little bit about what I call the stimulus 
package, but some other people call it the American Recovery 
and Reinvestment Act. I know you have been spending a fair 
amount of your time in recent months helping the Administration 
to implement the American Recovery and Reinvestment Act. As I 
mentioned in my opening statement, at least some of the 
improper payment problems we see in everyday Federal programs 
have popped up again as we try to get recovery funds out the 
door, and that is not a complete surprise.
    How effective do you think we have been in avoiding 
improper payments in the Recovery Act programs? And if 
confirmed, what do you plan to do to make certain that the 
remaining Recovery Act funds, which would be over half of them, 
are used for job creation and activities that will grow the 
economy rather than adding to agencies' improper payment 
estimates?
    Mr. Werfel. Senator, the Recovery Act, I would like to say, 
has many tensions in it, and one of the more critical tensions 
is the need to get money out to State and local economies so it 
can start having its stimulative effect and to get that money 
out quickly. But at the same time, we all have an important 
interest and duty to make sure that money is spent wisely and 
appropriately. And often we need to take important steps before 
the money goes out to make sure that the funds that we are 
sending are the right amount, going to the right people, and 
for the right purpose, and that can take time.
    So from the beginning of this process, going back to the 
day after the law was enacted on February 18, 2009, OMB issued 
guidance to the agencies that tried to find the right 
equilibrium between this tension of getting the money out 
quickly and being diligent in making sure the money was paid 
out correctly.
    One of the things we did to try to achieve that balance was 
have every agency initiate a risk management process where they 
were looking for what are the potential sources of error and 
mistakes that could be made. And we worked with them to 
identify certain symptoms or issues that could be at play.
    So, for example, if a program was being funded at 500 or 
600 percent more than it had previously as a result of the 
Recovery Act, more money going out into a standard channel 
could create risks of mispayments because the capacity at the 
organization might not have been built up yet to do all those 
thorough reviews. So we asked them, since there is a risk, can 
you put in a risk mitigation plan to make sure that you are 
moving and realigning resources? Do not assume that if you had 
five people working to review prepayments of a $100 million 
program, those same five people can do the job of a $600 
million program.
    That was a very critical step that we took, and you asked 
me what progress has been made. Right now the best we 
understand is evaluating the steps agencies have taken to do 
all those prepayment controls and those activities in an 
accelerated way. And what we are seeing from the agencies is 
those agencies have taken their risk management 
responsibilities very seriously. The agencies have risk 
management plans in place. They are not collecting dust on a 
shelf. They are being implemented and initiated.
    We recently went out to the agencies to ask them about 
their risk management plans, and we got a very enthusiastic 
response in terms of that process itself and how it is working.
    The question of how we are doing I think is something about 
which, if confirmed, I will come back and talk to you when we 
start auditing these payments out in the field and figuring out 
what our error rates are. I know there are some early audits 
already going on. I am not aware of the full results of those 
audits, but they probably will be coming in the near future.
    I think it is a very good sign that we are aggressively out 
there already auditing and looking for improper payments within 
months after the Recovery Act was passed. So that is a sign of 
progress. But once we figure out what the level of error is, 
what is going on in the field, and why these errors are being 
made, the most critical thing we can do is start changing our 
approaches around why these errors are occurring, modifying our 
risk management plans, and doing something that was in my 
written responses that I think is really critically important 
to manage that tension that I described, and that is, 
communicating early and often with the auditors about what is 
going on.
    I think a big shame would be if an auditor goes out to the 
field and audits a payment and says, ``Wow, I found a mistake, 
and this seems to be one that could be systemic, but I will 
wait 6 weeks before my final audit report is due before letting 
the agency know''--which is something that typically happens in 
government--we have to end that practice. We have to be in a 
place where, as soon as the auditor sees a problem, they are 
communicating earlier and collaboratively with the financial 
managers to make those changes. And that is one of the things 
that we are doing in our guidance, which is facilitating and 
encouraging these types of early interventions. And I am 
thankful that Earl Devaney at the Recovery Board, who is 
leading the Inspectors General on this effort, has really 
emphasized that in all of his interactions with the audit 
community as well.
    It is time to roll up our sleeves and make sure we are 
getting the information as soon as possible.
    Senator Carper. Good. There is actually a corollary with 
identifying the mistakes in the area of health care. Mistakes 
are made every day. Even while we are having this hearing, 
mistakes are being made in hospitals. Sometimes they cause 
serious injuries. Sometimes they take someone's life. And, 
historically, there has not been a really good admission that 
someone has made a mistake because of maybe concerns about 
malpractice suits or there is just a reluctance, maybe it is an 
embarrassment. But health care providers--doctors, hospitals, 
nurses--are beginning to come forward and say, ``Look, when we 
make a mistake, let us talk about it. Let us not keep it to 
ourselves. Let us learn from that mistake.'' Was it Richard 
Nixon who used to say that the only people who do not make 
mistakes are people who do not do anything? And so we all make 
mistakes, but the important thing is for us to, as you suggest, 
act on those mistakes, make sure that we do not continue to 
make the same mistake.
    Before I turn to property management for a few minutes, let 
me just say again I am encouraged that most agencies are doing 
a much better job now identifying and reporting improper 
payments. And some agencies are doing a good job reducing those 
improper payments. We have plenty of work to do in all three of 
those areas, but I especially am anxious to see us really hit 
the road running on recovering money as much as we can.
    During the last 8 years in this country, we literally 
incurred as much new debt as we did in, I think, the first 208 
years of our Nation's history. That is pretty staggering. In 8 
years we ran up as much new debt as we did in the first 208 
years of our Nation's history. This year, we are on track to 
run up the biggest single-year deficit ever. It will be over $1 
trillion. And we are told, probably by OMB or CBO, or both, 
that if we leave spending and taxing revenues on autopilot, we 
will rack up about maybe $9 trillion worth of debt over the 
next decade, none of which is acceptable. It would not leave 
much of a future for your kids or for mine or for any of our 
children. So that is not acceptable.
    The work that we are doing here, this is real money. This 
is real money that we are talking about, not spending or not 
wasting. And it is just important that we get it right. I am 
pleased to hear about the enthusiasm that the folks in the 
field have as they are looking for improper payments that flow 
out of the stimulus package. That is great news.
    Another issue that we spent some time together on is 
property management, and as I have noted, we have made strides 
in recent years with respect to, I think, identifying and 
categorizing the assets that we, as a Nation, own. As a result 
of that work, we now know that there are literally tens of 
thousands of buildings and other structures across our country 
that are owned by Federal agencies and that are either no 
longer needed or, in some cases, are just underutilized.
    Let me just ask you to dwell on this with us for a few 
minutes. What do you think is the root of the problem? What 
steps do you hope that OMB and the Federal agencies and those 
of us here in Congress can take to address it? And I would say 
included in that list are the Inspectors General (IGs). What 
can they do? What can this team do together to address this 
concern?
    Mr. Werfel. I want to start with mentioning that where we 
are today with real property is a place where we have a very 
strong foundation of tools and inventory and information to 
understand what is going on and to understand what those root 
causes of the problems are. We have, as you mentioned in your 
opening statement, a comprehensive inventory of the 1.2 million 
separate constructed assets that the Federal Government owns.
    Senator Carper. Would you just give us a broad array of 
examples of the constructed assets?
    Mr. Werfel. The general categories that we place these 
assets in are administrative buildings, warehouses, labs, and 
hospitals. There are also unique assets that we have, like 
launch pads, and the Department of Energy owns many sites that 
are environmental cleanup-related and other types of research 
that is being done.
    And then we own a lot of land and property as well--roads 
and, the Federal Aviation Administration (FAA) owns a lot of 
antennas and different types of assets that are out there. So 
it is not 1.2 million different buildings, but I think the 
important thing is just start focusing on where there are 
communities of assets for opportunity, like administrative 
buildings and warehouses, labs, hospitals, housing, etc.
    When we collected this information--we did it since 2004--
we did, I think, a very smart thing in collecting not just 
where the buildings are and what they are used for, but we also 
asked the Federal agencies to describe whether those buildings 
are mission critical or not, what their utilization rate is, 
what their condition is, and what their cost is. And by doing 
that, we have been able to tier our assets between those that 
are not mission critical, underutilized, operating at an 
unacceptably high cost, and are in poor condition. And we also 
know on the other side of that spectrum where the assets are 
mission critical, fully utilized, etc.
    And so for the first time, we were able to do data culls 
and figure out where are the assets that need our attention. 
And as you mentioned, we have 20,000 assets through this 
process that have been currently excessed, but 65,000 
additional assets that are underutilized but not excess. And 
that allows us to bring the agencies before us and ask: Why are 
your underutilized assets not yet excessed? So we can push them 
on that.
    Why are we in this condition? Why do we have 20,000 excess 
assets that have been sitting on our books? And why do we have 
65,000 underutilized assets that have not yet been excessed?
    I think there are two key reasons for it. The first goes 
back to our earlier discussion on improper payments with 
respect to incentives and making sure that the Federal agencies 
involved and the facility managers around government have an 
incentive to report something as excess and then try to get rid 
of it, that we break a culture of, well, if I have it, why 
would I give it up, and that we break a culture of not thinking 
progressively and proactively about, I have an asset, it is 
functioning, but if I think about it differently, maybe it 
really is excess because maybe I do not need two buildings 10 
miles from each other, both half-filled; maybe there could be 
consolidation efforts.
    We have an army of Federal facility managers out there, and 
we need to incentivize them and their leaders to derive benefit 
from going through this process of identifying their excess and 
getting rid of it.
    The other root cause of why we are where we are is that we 
are operating under a framework from a law that was enacted in 
1949 for how we get rid of our assets, and it is a very 
bureaucratic process. A lot of steps need to be taken. It takes 
a long time, and that does two things. First of all, it keeps 
things in the pipeline longer than necessary, but it also 
serves as a disincentive to those very same facility managers 
because not only do they have to now give up square footage 
that they currently have within their domain, but now they have 
to go through a very long and winding process to get rid of it. 
And the incentive structures just are not aligned.
    I think what is appropriate remediation of those two 
situations is to structure the real property environment such 
that managers are getting some financial incentive for 
disposing of their assets and also seeing if we can streamline 
the disposition process so that we can move these properties 
more quickly.
    Senator Carper. When you say managers should receive some 
kind of financial incentive, would they be managers, agencies, 
or both?
    Mr. Werfel. Yes, it is really the agency as a whole. When I 
have historically worked with the senior real property officers 
at agencies, they present this frustration that they do not 
have the funds or the resources that they need to invest in 
their mission-critical assets and get them into a place where 
they are functioning better so that they are serving the 
employees so they can do their mission, but also functioning 
better so their carbon footprint, for example, is smaller.
    There is an obvious connection that can be made there, and 
that is why we call it right-sizing the Federal inventory. If 
you can get rid of the assets that you do not need and get 
proceeds or derive economic benefit from that disposition, it 
enables you to make capital investments in those assets that 
you do retain. Overall, it has a good impact on budgetary 
pressure because you do not need as much money to invest in our 
Federal infrastructure, and you are getting a better Federal 
infrastructure.
    One of the sayings we have in the real property community 
is, ``You can spend $7,000 today to repair the roof or $7 
million 3 years from now to replace it.'' And what we need to 
do is make sure that we are getting those funds at the right 
time and at the right place so we are avoiding these types of 
bad decisions where we are allowing the roofs to get to that 
level of disrepair.
    Senator Carper. Can you give us an example of an agency or 
two within the Federal Government where they actually have 
aligned the incentives in an appropriate way and they are able 
to serve as a model maybe for other agencies? Any come to mind?
    Mr. Werfel. Yes, there are several agencies that have their 
own authority to retain proceeds and reinvest them. The U.S. 
Forest Service comes to mind, as well as the U.S. Department of 
Veterans Affairs (VA) is another.
    I will emphasize the VA's program in particular, and I do 
not mean to indicate that it is perfect, but the benefit, I 
think, of the VA's program--I know the acronym is CARES, the 
Capital Asset Realignment for Enhanced Services. It is a 
dedicated initiative around thinking about hospital 
construction. In a very general sense, I have heard it argued 
that the veterans population is tending to move from the 
Northeast United States to the Southwest United States, which 
leaves us in a situation where you have overcapacity of 
hospitals in the Northeast and undercapacity in the Southwest.
    And so they have built a program around thinking about how 
you right-size and invest smartly, and with some of the tools 
that they have through the CARES program to do it, there have 
been some successes.
    Now, there have also been issues, and that is where OMB can 
come in and say, are you sure you need new hospital square 
footage in this area? That is one of the processes of working 
effectively when you are thinking about it strategically and 
when you have a second set of eyes coming in and making sure 
and saying you have these new authorities, but let us not 
overbuild, let us make sure that we acquire new square footage 
strategically and smartly.
    Senator Carper. Have you all given some thought and 
attention to another related concern, and that is with respect 
to agencies making decisions to lease property as opposed to 
purchasing it? In the short term, that appears to be the 
financially smart thing to do, but over the life of the 
property, it turns out not to be so wise.
    Mr. Werfel. And that is something that needs to be a part 
of a real property improvement initiative going forward. We 
have to do a better job of isolating where poor lease decisions 
arise, as I think I said, before the parameters or the 
ingredients of a bad leasing decision, and make sure that we 
are again managing risks such that we are not entering into 
those.
    Some leasing decisions are smart. It depends on the 
circumstances. But, for sure, if you are about to enter a very 
large facility for many years and it is uniquely suited to your 
needs, then those are the kinds of situations where a lease 
makes little sense because you know you are going in and you 
know it is a unique building, and we should be owning those 
buildings if we are going to be there for the long term and not 
entering into non-economical lease situations.
    But if we need flex space, and we are over capacity, let us 
say, at ``Main Justice'' downtown and need more space to put 
more people, and it is thought to be a temporary fix, that is 
where a lease makes sense. So it is figuring that out and doing 
a better job as a Federal Government.
    Senator Carper. All right. A different question, a 
different area. As you know, progress has been made in recent 
years in improving the quality and, I think, the timeliness of 
agencies' financial statements. Plenty of work remains to be 
done in this area, however, including getting an opinion on the 
Federal Government's consolidated financial statements.
    Can you take just a few minutes to talk about the progress 
that has been made in agency financial reporting over the years 
and the benefits those improvements have brought, first of all, 
to individual agencies? And after that, could you give us some 
insight into your plans in this particular area, if confirmed?
    Mr. Werfel. Absolutely, and this is clearly in the sweet 
spot of the Office of Federal Financial Management and our core 
responsibilities under the Chief Financial Officers Act of 
1990.
    Most recently, we had, I think, a very important strategic 
push in financial management to do a better job on our 
financial statements. I think there were a lot of issues at 
play that brought that on, but, in particular, the Enron 
situation and the passage of the Sarbanes-Oxley Act really 
energized the Federal community around thinking more 
aggressively about getting our financial statements in order. 
And since that time, since Sarbanes-Oxley was passed and OMB 
issued OMB Circular A-123, which is the government's version of 
Sarbanes-Oxley, I have not done a statistical study of it, but 
there has been a significant improvement across government. We 
went from something like 62 auditor-identified material 
weaknesses down to 32 in a span of 3 or 4 years, and that was 
in large measure because there was more accountability at the 
agencies for achieving these efforts and more integration has 
started to occur, and that is something that A-123 pushes; that 
it is not just a Chief Financial Officer (CFO) responsibility 
to fix your fundamental financial management challenges; it is 
the responsibility of program managers and procurement 
officers. And so what A-123 does is it establishes these senior 
teams from different domain areas to go out and be accountable 
for and tackle financial management challenges together.
    We have 21 clean opinions now out of 24 CFO Act agencies, 
and as I mentioned, we have seen steep declines in material 
weaknesses.
    Another important point--and this is more to just say we 
have a foundation and we have proven we can do it--is we have 
accelerated financial statement publication from 5 months after 
the end of the fiscal year to 45 days. And that had so many 
benefits to it, but in particular, it forced agencies to be 
planning much earlier in the year, rather than waiting until 
September or October, the end of the fiscal year, to do 
everything and close down the books. If you are going to do it 
in 45 days, you need to be working throughout the year. And 
what happened is agencies started buildings disciplines around 
that, and that started to improve the standardization of 
approaches.
    With financial statement audits, it is always variance that 
gets you in trouble. When things look different every time you 
do it, that is a bad thing. It should always look the same 
every time you do it. These are basic financial transactions, 
and there needs to be consistency and coherence.
    What is interesting is even though we have 21 agencies who 
all have various complex challenges--they all face the same 
issues, they all have human capital issues of trying to make 
sure they get the right people with strong accounting skills, 
strong analytical skills into their shops to help tackle these 
problems--we still have three agencies--the Department of 
Homeland Security (DHS), the National Aeronautics and Space 
Administration (NASA), and the Department of Defense (DOD)--
that have yet to cross the finish line here. They are each 
making progress, but not the type of progress that I think is 
acceptable at this point, and we should be----
    Senator Carper. How do we better ensure that they make the 
kind of progress that would be acceptable?
    Mr. Werfel. I think one of the things we have to do with 
each of those agencies is relook at their corrective action 
plans, and we have to try to find, I think, a moment of truth 
for these agencies. November 15, which is the day the financial 
statements are due, is a nerve-racking day for every agency in 
government. This is the day they find out whether they passed 
or they did not pass, and it is a rallying cry for those 
organizations. And what I have noticed with NASA, Homeland 
Security, and the Defense Department is sometimes they do not 
have that same urgency. I do not get the frantic phone calls in 
October about what is going on from the CFO in those agencies 
the way I do from the others. And that frantic phone call is 
important. It tells me that they are looking at the problems 
and doing everything they can to fix it.
    And so I have talked to each of those agencies in my role 
as Deputy Controller about building these moments of truth. 
Even though they are not ready yet to produce that financial 
statement on November 15, can they have those financial 
managers feel like something has to happen that is positive, 
that the Secretary cares about, that the Administration cares 
about, and that Congress cares about to make sure that they are 
giving me those frantic phone calls that let me know things are 
happening.
    Senator Carper. Well, one of the agencies you just 
mentioned--and I would like to drill down on this one just a 
little bit--is the Department of Defense, which has a lot going 
on these days. I think we will all readily acknowledge that. 
But I think we are going to have a tough time getting the 
government's overall books in order as long as the Department 
of Defense is an outlier in this.
    What do you think has been holding DOD back? What can, 
first of all, the Department's leadership do to make 
improvements? And what could you do in your new position, if 
confirmed, to help them?
    Mr. Werfel. The Defense Department is the longest pole in 
the tent here for us to get a clean opinion on the consolidated 
financial statements, so we really do need to tackle this 
problem if we are going to be successful on the consolidated 
financial statements.
    What do I think needs to happen at the Defense Department? 
I have worked very closely with DOD over the past several years 
trying to analyze and understand the challenge, which is 
getting the Defense Department a clean opinion. And it is a 
massive challenge. It is the largest organization in the world. 
It is the most complex organization in the world by many 
different parameters.
    I think if I can boil it down, I would boil it down this 
way: The Defense Department will get a clean audit opinion when 
the key program managers throughout the Defense Department 
believe that it is going to help them achieve their mission to 
get a clean audit opinion. And so what I have noticed is a 
practice that we need to get away from at the Defense 
Department: If you have your clean audit action plan and you 
say, step one, let us do better on our depreciation schedules 
on historical assets, let us really clean those up, and if the 
people sitting across from you who are the people implementing 
the programs of the Defense Department think, you do that but 
that does not help me, it helps you get a clean opinion, but it 
does not help me do my job--then if that is your starting-off 
point, you are already behind in the race.
    But if you say, we have 20 different things we need to fix, 
and I am going to start by fixing the five things that are most 
critical to you as a manager, and if we do not fix these things 
together, then you cannot do your job effectively, that is 
where I think the Defense Department needs to be starting. It 
needs to be working with their program managers to say, out of 
the suite of things that we need to do, where are the things 
that are going to be most critically helpful to you?
    Just to give you an example of where I think they should be 
starting, it is with their cash and their money on hand. The 
fancy term for it is ``fund balance with Treasury.'' They have 
a material weakness with fund balance with Treasury, which 
means that they do not know how much money they have on hand, 
or cannot reconcile that, to meet emerging priorities. And I 
have talked extensively with the Office of the Chief Financial 
Officer over there in recent months, and I have said you can 
talk to those program managers and say without knowing what 
cash you have on hand, you are compromising your ability to 
serve your mission most effectively. That can inspire change 
and improvement, and that is the guiding principle, if 
confirmed, that I would have with the Defense Department, which 
is working very closely with them to be prioritizing 
differently around their initiatives to make sure that the 
things that they are doing are resonating with the larger 
Defense Department.
    That is going to take some communication with other folks 
in the Defense Department and real understanding of the nature 
of how these financial management improvements integrate into 
the business of the Defense Department.
    That is the type of momentum kick-start that I think is 
needed to start pushing this process forward because right now 
progress has been made, but it has been incremental. It has not 
been substantive, from my vantage point, and we need to start 
making substantive progress if we are going to tackle this 
issue.
    Senator Carper. Good. Well, I want you to tackle it, and I 
thank you. Obviously, you have given it a good deal of thought, 
and let us turn that thought into action.
    I have two more questions I want to ask, and then we will 
wrap it up. As I understand it, the main part of the job of 
controller is to ensure that the agencies follow existing 
financial management policies in implementing the President's 
financial management improvement priorities across government.
    Considering the small size of the staff at the Office of 
Federal Financial Management and the various longstanding 
financial management problems that agencies face, this is, I 
would guess, a daunting challenge. What challenges has the 
office faced in the past? And how would you address them in the 
future? Is there any particular philosophy that you plan to 
follow in dealing with agencies?
    Mr. Werfel. Absolutely. I think we have evolved as an 
organization--the Office of Federal Financial Management (OFFM) 
was created by the CFO Act in 1990--in a way that recognized 
early on in the process that it was a relatively small size 
staff given the enormity of the job, all the financial 
statements in government and all the fraud and the error and 
the waste, to try to implement policies to improve. And because 
of this reality of the size of the staff, practices have 
emerged in terms of collaborating with the larger community, in 
particular through the CFO Council.
    I would like to say that when OFFM writes a policy that is 
going to impact the government as a whole, we do not write it 
with the door closed and the windows shut. We write it by 
bringing the agencies in through task groups or committees of 
the CFO Council. So often I feel like sometimes I am not just 
managing the 17 people who work in OFFM; I am managing, at any 
given time, 20 or 25 working groups that have spawned up around 
government to deal with these different issues.
    You can look at it through different lenses and say, if you 
had more resources at the Office of Federal Financial 
Management, what else could you do? The lens through which I 
look at it is this practice of collaboration and creating 
working groups has really worked effectively. When I think back 
to the way we accelerated financial statements to 45 days and 
the way we did Sarbanes-Oxley for government, that was 
completely collaborative across Federal agencies. And in many 
ways, those folks out in the agencies doing the work were 
almost like OMB employees because they were shifting between 
their government-wide hat and their agency hat very frequently 
and saying this is what we need to do as a government versus 
here is what I need to do back at my own agency.
    My philosophy going forward will be to improve on that even 
more. It is a partnership. If confirmed, I plan to lead the CFO 
Council by committee with other key CFO leaders throughout 
government so that we are a united front toward the things we 
want to get done.
    I think one of the more critical philosophies that I want 
to embrace to build on the collaboration that we have is best 
practice sharing. I think that one of the areas that I want to 
be a focal point of the CFO Council is the premise that there 
are a lot of amazing things going on in government, that we 
have CFOs, as I mentioned in my statement, who have tackled 
these problems and fixed them; and we have CFOs working with 
others who have gone beyond just financial statements and have 
taken an approach to say what is the business of my agency and 
how do I improve that business, how do I cut costs, how do I 
prevent fraud and error before it occurs. They are utilizing 
techniques brought over from the private sector, whether it is 
Lean Six Sigma or others, and they are showing great results.
    And I think, as Controller, my job would be to close the 
education gap and make sure that everybody is aware of the 
critical successes that are going around government so that 
they know about the tools that they may need to do similar 
things. And that is going to be an important philosophy going 
forward.
    Senator Carper. Good. Well, I like that philosophy.
    DOD and a handful of other major agencies have, as we 
discussed, serious financial management problems that they need 
to address. Others are doing a better job.
    Is there anything you want to add about how you would take 
what works and translate it to helping those agencies--DOD is 
certainly one of those--to apply the lessons learned to their 
specific problem? I know you have spoken to this already. Is 
there anything else you want to add?
    Mr. Werfel. I would just amplify my further response by 
saying that I think one of the things that we have to overcome 
in particular in financial management is the perspective that 
agencies sometimes share with us, which is that my problems are 
unique, what worked at that agency will not work at my agency. 
And from my experience and my perspective, that is less often 
the reality, in particular with financial management. Accounts 
payable should be accounts payable wherever you do it. Accounts 
receivable, the same. And although agency programs are complex 
and different, the challenges often come back to common themes 
of not having good standard practices, not documenting your 
procedures appropriately, and not aligning your CFO 
organization appropriately.
    I will just finish by saying that I think benchmarking is 
such a critical element of these activities. One of the things 
that I would want to do as Controller is make sure that each 
CFO who is confirmed and comes in has an understanding of how 
the other organizations of government are aligned and where 
those alignments are having success. I want them to be able to 
say: We have 17 people doing this type of work at the 
Department of Energy, and the Department of Commerce has 12 
people. Why can they do it with less? And that would allow some 
realignment of resources to other priorities.
    Those types of benchmarking and communication has not 
happened to the degree that I think it can, and that is an area 
that I think we can emphasize and where we can start breeding 
more success.
    Senator Carper. Well, those are my questions. Is there 
anything else that you would just like to offer before we wrap 
it up?
    Mr. Werfel. Only that it has been a very distinct honor to 
have worked with you and your team through the years, and the 
opportunity, as I said in my opening statement, that the new 
leadership at OMB has provided me is just extremely humbling. I 
am extremely energized and excited about the challenges that we 
have and the tools that we have to take on these challenges. 
And I feel a sense of optimism. In particular, the Recovery Act 
is providing lessons learned and new partnerships. I would like 
to say that I have worked more with State and local governments 
in the last 5 months than I did in the previous 5 years 
combined. And similarly with GAO, we are sitting in meetings 
with GAO right now and hammering out what the solutions are 
rather than us doing the solution and then 3 months later GAO 
telling us how they would have done it differently.
    These types of developments and financial management are 
extremely exciting, a lot of them brought on by the urgency of 
the Recovery Act and the challenge. And I think these lessons 
learned will serve us very well and take us to new levels.
    Senator Carper. Good. I think you mentioned you have 17 
people within your own office. But there are a lot of working 
groups that are out there that you are spawning and sort of 
overseeing.
    We are relatively small. We share a lot of the same 
interests in making sure that the taxpayer dollars that we are 
spending we are spending prudently, wisely, and in a cost-
effective way. Given the kind of budgetary challenges that we 
face, it is imperative that we do that.
    Jeff Zients just had to leave, but one of the things that 
he and I discussed when he was going through the confirmation 
process a month or two ago was the need for us to collaborate, 
not just within the Federal Government, not just within OMB and 
with other Federal agencies--that is important--but also with 
GAO and, as you suggest, also, I think, with the IGs and 
certainly with this Committee and our sister committees in the 
House and in the Senate who really focus on trying to spend 
taxpayers' money cost effectively.
    I very much appreciate the enthusiasm that you bring to 
this job. I also appreciate the experience you bring to this 
job. Occasionally, we have folks nominated by any 
administration, by any President, who may be very bright 
people; they may ultimately turn out to do a good job in the 
position for which they are nominated. But they have to go 
through a period of training and get their sea legs before they 
can actually make much of a contribution. I think we are 
fortunate with you in that given your experience, enthusiasm, 
and intellect, we will get great results in a hurry. In fact, 
we already are getting those results.
    Again, we thank you for what you have done today in serving 
this country. We thank you for your willingness to continue 
that service in a new, expanded way. We look forward to working 
with you, and again, it was a real pleasure meeting your 
parents, your big brother, your wife and children, and a number 
of your colleagues.
    I just want to say, as a father of two children of my own, 
I remember when our boys were the age of Sean and Molly, and I 
think they were pretty well-behaved kids, but your children win 
the prize today. They have just been extraordinary and should 
make you and Beth, I think, very proud.
    With that having been said, the hearing record will be open 
until 12 noon tomorrow for the submission of additional 
questions, and the hearing is now adjourned. Thank you.
    [Whereupon, at 11:06 a.m., the Committee was adjourned.]















                            A P P E N D I X

                              ----------                              

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 <all>

</pre></body></html>
